                            AUDIT REPORT                                    IG-03-028



Report Recipients:
B/Melvin DenWiddie
JM/John Werner                  SUMMARY REPORT ON AUDIT OF
JM/June Flickinger           INTEGRATED FINANCIAL MANAGEMENT
JM/Margy Myles
JM/Margie Team                PROGRAM CORE FINANCIAL MODULE
MSFC/RS40/Danny
 Walker
                                             September 29, 2003


 cc:
 A/Integrated Financial
   Management Program
   Executive
 B/Deputy Chief Financial
   Officer for Financial
   Management
 B/Director, Integrated
   Financial Management
   Program
 B/Deputy Director,
   Integrated Financial
   Management Program
 MSFC/RS02/Core
   Financial
   Project Manager




                             OFFICE OF INSPECTOR GENERAL
                            Released by: __[original signed by]__________________
 National Aeronautics and
 Space Administration       David M. Cushing, Assistant Inspector General for Auditing
IG-03-028                                                        September 29, 2003
 A-01-061-00

                       Summary Report on Audit of
            Integrated Financial Management Program (IFMP)
                      Core Financial Module (CFM)


Our audit of the IFMP Core Financial Module, during the period August 2002 through
June 2003, identified four issues that, due to the fast moving nature of the CFM
implementation, were immediately communicated to NASA IFMP Program Executive.
NASA’s responses to those issues were also received at various points during the audit.
As of the issuance of this summary report, NASA management has adequately addressed
all issues, and we consider each issue closed.

At the time of our audit, we found that the NASA CFM Team had not:

   •   Planned to test all transactions prior to full, NASA-wide implementation of the
       CFM (Audit Issue 1),
   •   Tested all CFM-generated reports for accuracy (Audit Issue 2),
   •   Resolved critical data conversion testing discrepancies in the tracking system
       before Wave 2 (Headquarters, Johnson Space Center, Kennedy Space Center)
       CFM implementation (Audit Issue 3), and
   •   Used the IFMP Knowledge Sharing System (KSS) to document and disseminate
       lessons learned (Audit Issue 4).
Audit Issues and Recommendations


Audit Issue 1. Testing Transactions Deferred from the First Wave of
CFM Implementation.

When we reported this issue to NASA management on February 13, 2003, CFM
management had no plans to test all possible transactions prior to implementation of the
CFM at the NASA Centers. CFM Team officials stated that untested transactions would
be tested by October 1, 2003, about 3 months after the CFM was implemented at all
NASA Centers. Ideally, all transactions should be thoroughly tested prior to system
implementation. However, CFM Team officials felt that all transactions could not be
tested if the October 2002 target implementation at the Marshall Space Flight Center and
the Glenn Research Center were to be met. Therefore, CFM Team officials identified
119 transactions that were not critical to the Pilot and Wave 1 implementation, and
deferred them for testing after Pilot and Wave 1 implementation was complete.

CFM Team officials informed us that the majority of the deferred transactions were
closing transactions that are only required at the end of the fiscal year. However,
according to documentation we were provided by the CFM Deputy Project Manager,
only 29 (24 percent) of the 119 deferred transactions were closing transactions. An
IFMP support contractor – International Business Machines (IBM) Business Consulting
Services, stated in its October 25, 2002, draft report on NASA’s CFM transaction testing
that some of the transactions that CFM officials identified as closing transactions would
be encountered before fiscal year end and recommended that NASA test all deferred
transactions “as soon as practical.” Adequate transaction testing assures the integrity and
effectiveness of the transactions and their data content, thereby reducing the likelihood of
rejected transactions, labor-intensive workarounds, and inaccurate data.

Recommendation for Corrective Action Made on February 13, 2003.

   1. Identify and test all deferred “non-closing” transactions prior to Wave 2
      and 3 implementation. Test all remaining deferred transactions prior to
      October 1, 2003.

Management’s Response Received on April 7, 2003, and Our Evaluation of the
Response

NASA partially concurred with the recommendation. Management’s intent was to test all
deferred transactions prior to the start of Fiscal Year (FY) 2004. During the IBM review,
NASA deferred selected financial transactions for future implementation. The deferred
transactions as identified in the IBM report are categorized as: Prior Year, Agency
Level, Closing Transactions, Not Applicable to Wave 1, Advance Payments, and Other.
Testing for those transactions was targeted for either Wave 3 (the last of the NASA
Centers to implement CFM – Dryden Flight Research Center, Goddard Space Flight


                                             2
Center, and Langley Research Center) implementation or FY 2003 closing. Regarding
the Prior Year (Upward/Downward Adjustments), the CFM software obtained from the
SAP Corporation (SAP), upgrades incorporated after Pilot/Wave 1 implementation did
not resolve all of the open items related to Upward/Downward Adjustment accounting.
The Core Financial Project continues to work with SAP representatives to configure and
test the changes necessary to accommodate upward/downward adjustment processing in
the NASA SAP environment for Wave 3 implementation. The complete text of
management’s response is in Appendix C.

Management’s actions were responsive and we consider the recommendation closed.
Management plans for testing remaining transactions prior to October 1, 2003, were
adequate.


Audit Issue 2. Testing SAP-Produced Reports.

When we reported this issue to NASA management on February 13, 2003, management
had not tested CFM-generated reports for accuracy. NASA contracted with IBM
Business Consulting Services to determine if the CFM complied with the U.S. Standard
General Ledger (SGL), and tasked them to determine if reports produced by SAP were
supported by amounts recorded in the SGL. However, the reports were unavailable for
IBM to review. Inaccurate reports could result in program and project managers making
decisions based on inaccurate or incomplete data.

After receiving this issue, management determined that its first priority of report testing
would be “custom-developed” reports that are of importance to Program/Project
managers. Management stated that the Agency Process Team validated for accuracy the
“custom-developed” reports. The remainder of the reports would be tested as time
allowed.

Recommendation for Corrective Action

   2. Perform appropriate tests to ensure that all CFM-generated reports can be
      traced to and verified by the standard general ledger accounts.

Management’s Response and Our Evaluation of the Response.

NASA partially concurred with the recommendation. All CFM “custom-developed”
reports were designed, tested, and validated for accuracy by the Agency Process Team.
With respect to the IBM task, it was not NASA’s intent to have IBM review and test all
CFM-generated reports. On the other hand, NASA did expect IBM to review applicable
SGL-related reports to confirm the accuracy and logic of the SGL postings. Given the
timing of the IBM review, this effort was never fully completed (see Appendix C).

We consider management’s actions responsive to the recommendation and the
recommendation is closed. Our primary concern at the time we presented this issue to


                                             3
management was that CFM-generated reports be designed, tested, and validated for
accuracy before implementation of CFM. When we received management’s response on
April 7, 2003, five Centers had already implemented CFM and the remaining
implementation schedule was aggressive. Therefore, management’s response that they
validated for accuracy the “custom-developed” reports and planned to test the remaining
reports as time allowed was reasonable. Further, the software’s reporting functionality
and performance is currently being evaluated and tested during the FY 2003 financial
statement audit.


Audit Issue 3. Core Financial Module Data Conversion Testing
Concerns.

As of February 6, 2003, 18 days before the planned Wave 2 implementation, there were
373 open data conversion testing discrepancies (System Investigation Requests, or SIRs)
of which 139 were classified as critical as follows.

         Open Data Conversion General Request SIR Priorities for Wave 2 Centers

        Center                  Total                                  Priority

                                                   Critical              High                Medium
Johnson Space Center             96                  35                   25                   36

Kennedy Space Center             90                  34                   22                    34

Headquarters                     187                 70                   32                    85

Total                           373*                 139                  79                   155

*86 of the open SIRs (34 critical) were not yet coded in the tracking system as “retesting complete”
meaning that those SIRs were still subject to further testing and analysis.

A critical SIR is defined by NASA as one that (1) impacts the immediate ability to move
forward or complete an entire business function or task, and impacts multiple business
functions, multiple users and/or locations; (2) represents a failure that has no workaround
or alternative; or (3) no further action can be taken without full resolution. One critical
SIR example was established on January 22, 2003, when testing resulted in amounts paid
exceeding amounts budgeted.

NASA’s procedures require that for a SIR to be closed it must be reviewed and approved
by the CFM Team for closure. IFMP Team officials told us that although they had
properly resolved or managed the risks associated with each open SIR, they had not had
sufficient time and resources to close each SIR and may not do so before implementation.

We were concerned that until the IFMP Team formally closes a SIR it continues to pose a
risk. For example, we identified a SIR that the IFMP Team categorized on November 20,


                                                     4
2002, as “retesting complete.” However, on November 25, 2002, the same SIR was
updated with new issues that were not resolved as of February 6, 2003. In October 2002,
when the Marshall Space Flight Center (Marshall) and the Glenn Research Center
(Glenn) went live with the CFM, both Centers experienced problems processing
contractor payments that resulted in a backlog of invoices. Rejection errors in converted
data contributed to those problems. NASA had to pay to contractors (as of January 23,
2003) more than $128,000 in interest due to late payments. As of February 6, 2003,
Marshall and Glenn still had 579 open data conversion SIRs. This type of problem
indicates the criticality of thorough analysis of testing discrepancies, including data
conversion discrepancies, before the CFM goes live.


Recommendation for Corrective Action

   3. Apply additional resources to prioritize all open SIRs and to close them in a
      timely manner.

Management’s Response and Our Evaluation of the Response.

As of February 27, 2003, NASA open SIRs have been substantially reduced. NASA will
follow the recommendation of the OIG and continue to formally change the indicator to
‘Closed’ for the remaining SIRs within the tracking system as soon as possible. NASA
will also improve the SIR tracking and maintenance process for the Wave 3 Centers by
expeditiously updating the status of the SIRs as they progress through the process (see
Appendix C). Management’s actions are responsive to the recommendation and the
recommendation is closed.



Audit Issue 4. Core Financial Module Lessons Learned.

After performing our audit of the CFM data conversion and testing procedures at the
Johnson Space Center (Johnson), we reported to NASA management on April 3, 2003,
that IFMP CFM personnel did not use the IFMP KSS to document and disseminate
lessons learned, and overall, the KSS was being used sparingly. Because sharing
information is a key to successfully implementing the IFMP, NASA hired a contractor to
conduct a full-scale needs assessment considering all aspects of knowledge management.
Based on the assessment, NASA hired a contractor to create the KSS to provide a web-
based, user-friendly capability to disseminate lessons learned and best practices related
specifically to the IFMP. The KSS Plan directs that lessons learned be implemented at
all levels of the IFMP to ensure knowledge, experiences and best practices are shared
among projects and NASA Centers. The KSS Plan is also designed to increase efficiency
and ensure successful implementation of all the IFMP Modules. NASA implemented the
KSS to achieve that purpose.




                                            5
On March 25, 2003, we examined the KSS by performing a search under the phrase
“Core Financial,” and by browsing through the drop down project menu titled “Core
Financial” and found that it contained only four entries related to the CFM. Two of those
entries were briefings held at the Glenn Research Center and the Marshall Space Flight
Center on broad, high-level lessons learned after the Pilot/Wave 1 CFM implementation.
The remaining two KSS entries resulted from activities at the Pilot/Wave 1 Centers prior
to data conversion and go-live. While it is not feasible to determine how many lessons
learned should be documented in the KSS at this point, we would expect that after
implementation of the CFM at five NASA Centers, there would be many more detailed
lessons learned.

Johnson IFMP personnel informed us that they shared lessons learned, but did not record
them in the KSS under the Core Financial area. Personnel stated that they entered
lessons learned not into KSS, but into the data design documents that will be used by the
Wave 3 Center personnel in implementing the CFM. Similarly Wave 2 Center personnel
shared other lessons learned with other Centers during daily meetings but did not record
them in KSS.

We believed that CFM personnel were focused on implementing the module and using
the KSS was not one of their top priorities. However, by reporting lessons learned
informally, we believed that NASA lacked assurance that personnel implementing future
IFMP modules would have easy access to documented lessons learned and best practices
of the CFM teams. In addition, personnel implementing future IFMP modules may not
be able to readily use the data design documents used in CFM implementation since the
remaining IFMP modules probably will not use the same data design documents. The
KSS is a valuable part of the implementation of IFMP and should be used as a control
and feedback tool for the overall implementation of IFMP.

Recommendation for Corrective Action

   4. Emphasize to all IFMP personnel, the value of timely and fully documenting
      lessons learned in the relevant areas of the KSS and ensuring that the KSS is
      used to the fullest extent possible.

Management’s Response and Our Evaluation of the Response

Management concurred with the recommendation. The IFM Program will undertake the
following actions:

   •   Review and update our KSS plan to ensure that the structures and processes
       described within are still appropriate;
   •   Provide the updated KSS plan to the IFMP lessons-learned points of contact at
       Program, Project, and Center levels;
   •   Review and update if needed the best practices and lessons-learned already
       captured within the KSS to ensure they are appropriately categorized; and



                                            6
   •   Continue to emphasize to the various IFMP teams and NASA Centers the
       importance of using a KSS and emphasize the timely submittal of lessons-learned
       and best practices applications (see Appendix C).

Management’s actions are responsive to the recommendation and the recommendation is
closed.

Appendixes

Details related to the disposition and closure of all of our audit objectives related to the
CFM are in Appendix A. Among the other appendixes, note that Appendix B shows our
audit scope and methodology related to the issues contained in this summary report.
Appendix C contains management’s responses in their entirety.




                                              7
List of Appendixes

Appendix A – Disposition of OIG CFM Audit Objectives

Appendix B – Objectives, Scope, and Methodology

Appendix C – Management’s Response

Appendix D – Report Distribution




Acronyms Used in the Report

CFM         Core Financial Module
FY          Fiscal Year
IBM         International Business Machines
IFM         Integrated Financial Management
IFMP        Integrated Financial Management Program
KSS         Knowledge Sharing System
OIG         Office of Inspector General
SIR         System Investigation Request
SGL         Standard General Ledger




                                      8
   Appendix A. Core Financial Module Audit Objectives Disposition

The Office of Inspector General (OIG) has been auditing the Agency’s latest Core
Financial Module (CFM) implementation effort since October 2001. Below are the audit
objectives that we addressed in conducting our work and the disposition of each of those
objectives.

Assignmen        Title                 Objective                           Disposition
t Number

A0106100    Audit of        Assess the adequacy of the         We reported to management on
            Integrated      procurement actions taken to       March 29, 2002, that we noted no
            Financial       acquire and implement the CFM.     discrepancies in procurement
            Management                                         actions taken as of November 2001
            Program                                            and planned no further work.
            (IFMP) CFM.
                            Determine whether module           We reported to management on
                            implementation is on target with   March 29, 2002, that as of January
                            budget and schedule                2002 nothing came to our attention
                            expectations.                      to indicate that the module would
                                                               not fall within budget and would not
                                                               meet the schedule and we planned
                                                               no further work.

                            Determine whether the module       On March 29, 2002, we notified
                            meets Federal financial            management that we revised the
                            management system                  objective to determine whether
                            requirements.                      (1) the CFM would implement
                                                               NASA’s full cost initiative, and (2)
                                                               the CFM would adequately support
                                                               NASA’s preparation and audit of its
                                                               financial statements.

                            Determine whether the CFM          Objective addressed in audit report
                            would implement NASA’s full        number IG-03-015 dated May 23,
                            cost initiative.                   2003.

                            Determine whether the CFM          On January 5, 2003, we notified
                            would adequately support           management that we would address
                            NASA’s preparation and audit of    this objective under assignment
                            its financial statements           number A-01-061-03.

A0106102    IFMP Core       To determine whether the NASA      Due to the fast moving nature of
            Financial       Centers will properly transfer     system development, all exceptions
            Management      accurate and essential financial   noted were reported to management
            Data            data to the IFMP system            via quick response reports and
            Conversion                                         summarized under this report.
            Testing
            Procedures




                                              9
                                                                                     Appendix A

Assignmen          Title               Objective                            Disposition
t Number

A0106102      IFMP Core     To determine whether the NASA       We performed limited work on this
(continued)   Financial     Centers will properly exchange      objective. This objective is being
              Management    financial and cost information      further assessed under the FY 2003
              Data          between legacy financial systems    NASA Financial Statement audit.
              Conversion    and the Core Financial System.
              Testing
              Procedures

                            To determine whether the NASA       We did not address this objective
                            Centers will properly develop       under this assignment. This
                            feasible plans for managing         objective will be addressed in a
                            legacy financial systems when the   planned OIG audit.
                            Core Financial System becomes
                            operational.

A0106103      IFMP Core     Determine whether the CFM           All exceptions noted were reported
              Financial     would adequately support            to management via quick response
              Testing       NASA’s preparation and audit of     reports and rolled up and reported
              Procedures.   its financial statements.           under this summary report.




                                             10
             Appendix B. Objectives, Scope, and Methodology

Objectives

Our audit objectives related specifically to this report were to determine whether:
   • NASA Centers will properly transfer accurate and essential financial data to the
      IFMP system; and
   • CFM would adequately support NASA’s preparation and audit of its financial
      statements.

Scope and Methodology

We reviewed CFM testing plans and data subsequent to Wave 1 implementation
(Marshall Space Flight Center and Glenn Research Center October 2002 implementation)
and prior to Wave 2 implementation. To meet our objectives we:

   •   Held discussions with CFM staff from the Huntsville, Alabama project office and
       from the Glenn Research Center, Marshall Space Flight Center, Johnson Space
       Center, and Headquarters offices.
   •   Held discussions with CFM support contractor personnel from Accenture and
       International Business Machines Business Consulting Services.
   •   Reviewed Integrated Financial Management Program (IFMP) requirements for
       testing, data conversion, and lessons learned.
   •   Analyzed the Methods Delivery Manager for Systems Investigation Request
       status and other testing results.
   •   Analyzed the IFMP Knowledge Sharing System database.

During our audit work we found it increasingly difficult to follow a formal reporting
process to provide observations and recommendations to management, discuss the
observations, and assess management’s response to those recommendations in a timely
manner. This was due to the tight schedule that the CFM Team was following to meet
the targeted implementation date. Therefore, to minimize our impact on the CFM Team
in meeting its schedule, we employed a quick response reporting process to address the
objectives. Management has taken responsive corrective actions in response to each of




                                          11
                                                                                               Appendix B

those observations and all are considered closed. The purpose of this report is to roll up
those observations, recommendations, and management actions into this summary audit
report to meet our reporting obligations.1

Management Controls Reviewed

We identified and assessed the controls for ensuring that all CFM data conversion testing
results were acted on and dispositioned in a timely manner, and that all CFM lessons
learned were disseminated in accordance with NASA IFMP planning. All weaknesses in
these controls were reported to management.

Audit Field Work

We performed audit fieldwork related to the objectives of this report at the CFM facility
in Huntsville, Alabama; Johnson Space Center; Glenn Research Center; and
Headquarters from August 2002 through June 2003 in accordance with generally
accepted Government auditing standards.




1
  Section 8.54 of the Government Auditing Standards, dated June 2003 states: “Government auditors
should submit audit reports to the appropriate officials of the audited entity and to the appropriate officials
of the organizations requiring or arranging for the audits, including external funding organizations, such as
legislative bodies, unless legal restrictions prevent it. Auditors should also send copies of the reports to
other officials who have legal oversight authority or who may be responsible for acting on audit findings
and recommendations and to others authorized to receive such reports. Unless the report is restricted by
law or regulation, or contains privileged or confidential information, auditors should clarify that copies are
made available for public inspection.”


                                                      12
                     Appendix C. Management’s Response

Following is management’s full response to Audit Issues 1 through 4.

IFMP Response to Audit Issue 1 (April 7, 2003)

IFMP partially concurs with this recommendation. It is our intent to test all deferred
transaction prior to the start of FY04. Our detailed response to the OIG’s issues and
concerns in this area are provided below.

During the IBM Review, NASA deferred selected financial events for future
implementation. The deferred events as identified in the IBM report can be categorized
as follows:
    • Prior Year--These events were deferred because at the time of Pilot/Wave 1
        implementation, SAP was unable to process upward and downward adjustments
        to prior year transactions in accordance with US SGL requirements.
        (40 proformas)
    • Agency Level--These events will be processed at the Agency level and were
        deferred until SAP implementation for the Agency users or all Centers have
        implemented SAP based on the associated business process and timing for
        implementation in the Agency rollout. (19 proformas)
    • Closing Transactions--These events will be needed at the end of FY 2003 and
        were deferred until SAP implementation at all NASA Centers. (29 Closing/Year
        End proformas)
    • Not Applicable to Wave 1--Core Financial Project Management and the Agency
        Business Process Owner determined that these events were not applicable to the
        financial processing requirements of MSFC and GRC and were deferred until
        Wave 2 implementation. (8 proformas)
    • Advance Payments--The events associated with advance payment for goods and
        services were deferred due to the low volume of transactions processed at all
        Centers. (8 proformas)
    • Other--These events relate to sale of property, reclassification of assets, and other
        miscellaneous events and were deferred due to the low volume of transactions
        processed at all Centers. (15 proformas)

       (NOTE: The above totals to 119 proformas – versus 120. This is because one of
       the proformas --- #929 --- was duplicated.)

Current status of the configuration, testing and implementation for these deferred
financial events is as follows:




                                            13
                                                                           Appendix C

•   Prior Year (Upward/Downward Adjustments)--SAP upgrades incorporated
    after Pilot/Wave 1 implementation did not resolve all of the open items related to
    Upward/Downward Adjustment accounting. The Core Financial Project
    continues to work with SAP representatives to configure and test the changes
    necessary to accommodate upward/downward adjustment processing in the
    NASA SAP environment. While considerable progress has been made, more
    work needs to be done. The Project is monitoring the progress and believes it is
    still on target for the FY04 implementation. As of February 24th, approximately
    50 to 75% of the overall scenarios had been successfully unit tested, but still
    require extensive integration testing to fully verify the results. Regardless, there
    are still challenges with some of NASA’s more complex scenarios (e.g.,
    adjustments for an invoice receipt that covers multiple goods receipts that were
    created in different fiscal periods) and the Project will continue to work with SAP
    as challenges/issues are encountered. In the end, if specific scenarios are
    identified that cannot be fully automated due to their complexity, we will address
    alternatives with the process owners to ensure we are in compliance with NASA
    policy and external regulations. Until SAP provides acceptable resolutions, Code
    B has requested that the Centers continue the manual analysis and tracking
    process that was utilized prior to implementation of the Core Financial system.

    Agency Level--In process, and targeted for Wave 3 implementation. The Core
    Financial Project is in the process of configuring and testing the deferred
    proformas. Obviously, the Agency Level events are not being processed in SAP
    at this time. The existing legacy GLAS system at Headquarters is continuing to
    be utilized during the Agency transition to SAP. To provide clarification for the
    transition year, below is an excerpt from the Core Financial Business Transition
    Processes Plan (section 6.6) that depicts the process used during FY03.

    “For several years, NASA has been under a legal mandate to implement the SGL
    at the transaction level. This has not yet been implemented because of the issues
    with modifying each Center’s existing general ledger system to accommodate the
    SGL. NASA HQ Code BF currently crosswalks the GLAS structure to the SGL
    each quarter for external reporting. When SAP is implemented at each Center,
    the SGL will be implemented at the same time with GLAS and FACS (F)
    continuing to be reconciled monthly by Code BF. The data from SAP will be
    combined by NASA HQ Code BF with the data crosswalked to the SGL from
    GLAS (for Centers not on SAP). This combined data will be used for external
    reporting, including financial statements.”




                                         14
Appendix C

   •   Closing Transactions--In process, and targeted for implementation prior to FY03
       closing.
   •   Not Applicable to Wave 1--PCS transactions originally deferred until JSC
       implementation were incorporated into production during Wave 2 implementation
       as planned.
   •   Advance Payments--In process, and targeted for Wave 3 implementation. The
       Agency design supports the recording of Advances for Travel and Government
       Orders. As agreed by the process owners (Code B), advances for Letter of Credit,
       SBIRs and Training orders will be treated as disbursements. The Core Financial
       Project is currently finalizing the configuration and testing for ‘prepayments to
       other government agencies.’ This impacts one of the Wave 2 Centers only and is
       being tracked as a reconciling item for the conversion reconciliation.
   •   Other--Six have been successfully configured and tested; remaining in process,
       and targeted for Wave 3 implementation.

IFMP Response to Audit Issue 2 (April 7, 2003)

IFMP partially concurs with this recommendation. We don’t disagree that all reports
should be tested – and they are – however, there is some implication here by the OIG that
that all CFM-generated reports are related to the SGL accounts – which they’re not. Our
detailed response to the OIG’s issues and concerns in this area are provided below.

Core Financial reports produced from SAP contain information obtained from numerous
sources, not just the Standard General Ledger. It is these “non-SGL” type reports that
will be of importance by Program / Project managers, not the SGL reports. Some
examples of the SAP modules containing Core Financial reporting information include:
    • Materials Management (e.g., Purchase Requests, Contracts/Grants, Receiving
        Reports, Invoices)
    • Sales and Distribution (e.g., Reimbursables)
    • Project Systems (e.g., Phasing Plans)
    • Controlling (e.g., Cost Assessments)
    • FI (e.g., Standard General Ledger)
    • FM (e.g., Budget Controls)
    • Business Warehouse (predominately used to meet the needs of end users (e.g.,
        Program/Project Managers)

All Core Financial custom developed reports (from both SAP R/3 and SAP Business
Warehouse, or BW) are designed, tested and validated for accuracy by the Agency
Process Team. It is inaccurate to state that CFM officials said there were no plans for
testing report accuracy. With respect to the IBM task, it was not NASA’s intent to have




                                           15
                                                                               Appendix C

IBM review and test all CFM-generated reports. On the other hand, we did expect IBM
to review applicable SGL-related reports to confirm the accuracy and logic of the SGL
postings. Given the timing of the IBM review, this effort was never fully completed. To
the extent that IBM or the OIG will perform this task, the scope of this review should be
limited to SGL reports. This will entail on-site visit(s) to MSFC, and will require support
from the SGL team. This will need to be planned accordingly.

IFMP Response to Audit Issue 3 (April 7, 2003)

IFMP concurs with this recommendation. Our detailed response to the OIG’s issues and
concerns in this area are provided below.

The steps leading up to go-live rely heavily on the success of the conversion activities at
a given Center. There is a very rigorous process in place to ensure that the conversion
work is managed efficiently and effectively. This process requires that all issues,
whether they relate to the legacy data, legacy data extraction routines, the conversion
load programs, or the environment be documented immediately via a System
Investigation Report (SIR). The process requires immediate attention be placed on
conversion related SIRs so that the conversion activities will not be halted.

The conversion teams aggressively worked all conversion SIRs in conjunction with the
Central Support staff located at MSFC. Working together, these teams concentrated on
the materiality and criticality of the SIRs and correcting the issue.

It is apparent from the success of the go-live conversions by JSC, KSC, HQ, and NMO
that the SIR process worked to help document issues and focus adequate attention on
identifying the required corrections so that the go-live would be successful.




                                             16
Appendix C

Although the SIR status is fluid throughout the lifecycle, below reflects the conversion
SIR status as of February 27, 2003:

                                    Open
                                 (In Process/      Ready to Retest /        Retest Complete
            Center                Assigned)       Authorized to Retest      (Ready to Close)

     Marshall Space Flight             0                     0                      0
           Center

    Glenn Research Center              0                     0                      0

     Johnson Space Center              0                     0                      23

         Headquarters                  4                     1                      56

    Kennedy Space Center               2                     1                      15


In conclusion, the administrative activity to officially ‘Close’ the SIRs does not reflect on
a Center’s ability to go-live successfully. Nevertheless, NASA will follow the
recommendation of the OIG and continue to formally change the indicator to ‘Closed’ for
the remaining SIRs within the tracking system as soon as possible. We will also improve
the SIR tracking and maintenance process for the Wave 3 Centers by expeditiously
updating the status of the SIRs as they progress through the process.

IFMP Response to Audit Issue 4 (June 24, 2003)

The Program concurs with the OIG recommendation that, "The Integrated Financial
Management Program Executive should emphasize to all IFMP personnel, the value of
timely and fully documenting lessons learned in the proper areas of the Knowledge
Sharing System (KSS) and ensuring that the KSS is used to the fullest extent possible."

We agree with the OIG that the Knowledge Sharing System (KSS) is a unique and
valuable application for “lessons-learned” collection, analysis and distribution within the
IFMP community. Though other methods (e.g., formal reviews, scheduled workshops)
have been effectively used in disseminating lessons-learned among the IFM project teams
and Center-based users and implementers, particularly during the rollout phase, a KSS is
still an important tool, facilitating the continuous identification, capture, submittal,
utilization, and updates of lessons learned and best practices with minimal impact on our
program resources. The KSS will be especially valuable to future IFMP efforts (e.g.,
Integrated Asset Management) in their reviews of lessons learned from the Core
Financial and other module implementations.



                                             17
                                                                            Appendix C

Therefore, the IFM Program will undertake the following actions:

   •   Review and update our KSS plan to ensure that the structures and processes
       described within are still appropriate;
   •   Provide the updated KSS plan to the IFMP lessons-learned points of contact at the
       Program, Project, and Center levels;
   •   Review and update if needed the best practices and lessons-learned already
       captured within the KSS to ensure they are appropriately categorized; and
   •   Continue to emphasize to the various IFM project teams and Centers the
       importance of using a KSS and emphasize the timely submittal of lessons-learned
       and best practices applications.

In summary, the IFM Program has, in its KSS, an effective tool in place for capturing and
sharing lessons-learned and best practices observations and analysis. For example, many
of the comments received from the Core Financial Waves 2 and 3 Centers showed that
the lessons-learned from the previous Waves rollouts were quite valuable. However, as
noted by the OIG, improvements can and will be made with respect to the use and
efficacy of the KSS tool. IFMP is committed to improving the use of this capability.




                                           18
                      Appendix D. Report Distribution

National Aeronautics and Space Administration Headquarters

A/Administrator
ADI/Associate Deputy Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
AA/Chief of Staff
AB/Associate Deputy Administrator
B/Deputy Chief Financial Officer for Financial Management
B/Deputy Chief Financial Officer for Resources (Comptroller)
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
Q/Associate Administrator for Safety and Mission Assurance

NASA Advisory Officials

Chair, NASA Aerospace Safety Advisory Panel

NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John. H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JPL/Director, Jet Propulsion Laboratory, NASA Management Office
JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center
LaRC/106/Acting Director, Langley Research Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
SSC/AA00/Acting Director, John C. Stennis Space Center




                                         19
                                                                        Appendix D

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
 and the Census
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         20
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness
of our reports. We wish to make our reports responsive to our customers’ interests,
consistent with our statutory responsibility. Could you help us by completing our reader
survey? For your convenience, the questionnaire can be completed electronically through
our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the
Assistant Inspector General for Auditing; NASA Headquarters, Code W, Washington, DC
20546-0001.


Report Title: Summary Report on the Audit of the Integrated Financial
              Management Program Core Financial Module
              IG-03-028, dated September 29, 2003


Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                      Agree      Agree   Neutral   Disagree   Disagree   N/A

1.   The report was clear, readable, and logically       5         4       3          2          1       N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

# Excellent             # Fair               # Very Good                 # Poor# Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #    Media
   #   NASA Employee                       #    Public Interest
   #   Private Citizen                     #    Other:
   #   Government:            Federal:             State:         Local:


May we contact you about your comments?

 Yes: ______                                     No: ______
 Name: _______________________________
 Telephone: ___________________________


Thank you for your cooperation in completing this survey.
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.

Major Contributors to This Report

Neil Ryder, Office of Audits (OA) Director, Financial Management Audits

Karl Allen, Project Manager

Linda Wagner-Anderson, Auditor

Daniel Birnbaum, Auditor

Gene Griffith, Auditor

Bret Skalsky, Auditor
